TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Procedures for Withdrawals and
                    Releases of Notices of Federal Tax Lien
                          Were Not Always Followed



                                         August 22, 2012

                              Reference Number: 2012-30-096




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


PROCEDURES FOR WITHDRAWALS                             worked in the Advisory function increased by
AND RELEASES OF NOTICES OF                             142 percent between Fiscal Year 2010 and
FEDERAL TAX LIEN WERE NOT                              Fiscal Year 2011. TIGTA reviewed a statistical
ALWAYS FOLLOWED                                        sample of 100 NFTL withdrawals and could not
                                                       find evidence in 15 (15 percent) cases that
                                                       withdrawals were approved by managers as
Highlights                                             required. In addition, withdrawal certificates
                                                       were not issued timely to the recording office in
                                                       eight (8 percent) cases. Management approval
Final Report issued on August 22, 201                   helps reduce the risk of improper withdrawals
                                                       that can burden taxpayers because of
Highlights of Reference Number: 2012-30-096            associated delays.
to the Internal Revenue Service Commissioner
for the Small Business/Self-Employed Division.         TIGTA also reviewed statistical samples of
                                                       100 manual and 185 systemic NFTL releases
IMPACT ON TAXPAYERS                                    and determined the releases were not timely in
The purpose of the Notice of Federal Tax Lien          11 (11 percent) manual and nine (4.86 percent)
(NFTL) is to protect the Federal Government’s          systemic cases. Untimely NFTL releases can
right of priority against certain third parties,       potentially violate taxpayers’ rights.
typically purchasers or creditors. When certain        During our review, the IRS took corrective action
conditions are met, the IRS is required to             to prevent some untimely systemic releases.
release the NFTL to protect the taxpayer’s             Specifically, the IRS requested reduction of the
rights. Also, the IRS may withdraw an NFTL in          45-day programming delay in the Automated
certain circumstances, such as when an NFTL is         Lien System when the Collection Statute
filed in error. However, releases and                  Expiration Date on a refiled NFTL expires.
withdrawals of NFTLs were not always
processed timely or properly. Withdrawal delays        WHAT TIGTA RECOMMENDED
can cause unnecessary burden to taxpayers
who may be trying to meet their financial              TIGTA recommended that the Director,
obligations, and untimely releases could violate       Enterprise Collection Strategy, Small Business/
taxpayers’ rights.                                     Self-Employed Division: 1) revise procedures to
                                                       ensure timely approval, processing, and
WHY TIGTA DID THE AUDIT                                documenting of NFTL withdrawal requests;
                                                       2) establish more specific timeliness
IRS policy changes and outreach efforts have           expectations in the NFTL release procedures;
caused significant increases in the number of          and 3) evaluate whether to modify the 30-day
withdrawals requested by taxpayers. TIGTA              delay in the Automated Lien System when the
initiated this audit to determine whether the          Collection Statute Expiration Date expires on a
controls and procedures for the release,               non-refiled NFTL.
withdrawal, and refiling of NFTLs are effectively
protecting the Federal Government’s interest           In their response to the report, IRS officials
and taxpayers’ rights.                                 agreed with all three recommendations. The
                                                       IRS plans to make changes to the relevant
WHAT TIGTA FOUND                                       Internal Revenue Manual sections to provide for
Refiling the NFTL is sometimes necessary to            improved documentation and timely disposition
protect the IRS’s priority position against other      of withdrawals and to elaborate on the manual
creditors. TIGTA reviewed a random sample of           release process. In addition, the IRS plans to
30 refiled NFTL cases and determined that all          consider the possibility of the programming
cases were processed accurately and timely.            change within the current structure of the
                                                       Automated Lien System, the volume of cases
TIGTA analyzed the impact of changes to the            affected by such a change, and the potential
IRS’s withdrawal policy and determined the             effects on other lien processes such as refiles.
estimated number of withdrawal certificates
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 22, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Procedures for Withdrawals and Releases of
                                 Notices of Federal Tax Lien Were Not Always Followed
                                 (Audit # 201130018)

 This report presents the results of our review to determine whether the controls and procedures
 for the release, withdrawal, and refiling of Notices of Federal Tax Lien1 are effectively protecting
 the Federal Government’s interest and taxpayers’ rights. This audit was conducted as part of our
 Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (213) 894-4470
 (Ext. 128).




 1
     See Appendix V for a glossary of terms.
                                   Procedures for Withdrawals and Releases of
                              Notices of Federal Tax Lien Were Not Always Followed




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Refiles of the Notice of Federal Tax Lien Were
          Processed Accurately and Within the Required
          Time Period ................................................................................................... Page 4
          Notice of Federal Tax Lien Withdrawals Have
          Significantly Increased.................................................................................. Page 4
          Notice of Federal Tax Lien Withdrawals Were
          Not Always Properly Processed.................................................................... Page 7
                    Recommendation 1:........................................................ Page 10

          Notice of Federal Tax Lien Releases Were Not
          Always Timely Issued................................................................................... Page 10
                    Recommendations 2 and 3: .............................................. Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measures............................................................... Page 19
          Appendix V – Glossary of Terms ................................................................. Page 21
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
              Procedures for Withdrawals and Releases of
         Notices of Federal Tax Lien Were Not Always Followed




                    Abbreviations

ALS           Automated Lien System
CLP           Centralized Lien Processing Operation
FY            Fiscal Year
I.R.C.        Internal Revenue Code
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
NFTL          Notice of Federal Tax Lien
SB/SE         Small Business/Self-Employed
                                Procedures for Withdrawals and Releases of
                           Notices of Federal Tax Lien Were Not Always Followed




                                                Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face-to-face with taxpayers. A claim,1
commonly referred to as a Federal Tax Lien, attaches automatically to a taxpayer’s assets for the
amount of unpaid tax when the taxpayer neglects or refuses to pay. The IRS files a Notice of
Federal Tax Lien (NFTL)2 in appropriate local government offices to protect the Federal
Government’s right of priority against certain third parties, typically purchasers or creditors.
The IRS can file an NFTL on the taxpayer’s property for one or multiple tax periods that contain
an outstanding tax liability. The IRS also has the statutory authority to refile the notice to
continue protecting the Federal Government’s priority interest, when applicable. In addition, the
IRS is required to release the NFTL to protect the
taxpayer’s rights after the taxpayer meets various
conditions. In some cases, the IRS may withdraw the           The filing of an NFTL protects
NFTL, such as when it is filed in error.                       the Federal Government’s
                                                                               right of priority against
Refiling the NFTL                                                           certain third parties, typically
                                                                              purchasers or creditors.
Generally, the NFTL is valid for a 10-year period
because the IRS has only 10 years to collect the tax
liability after assessment. However, in some circumstances, such as when the taxpayer files
bankruptcy, the 10-year collection period may be extended3 or suspended.4 When this occurs,
IRS employees are authorized5 to request a refile of the NFTL. The primary purpose of refiling
the NFTL is to maintain the IRS’s priority position established by the original NFTL filing. If
the IRS determines not to refile the NFTL, a self-releasing provision6 will extinguish the notice
30 calendar days after the original Collection Statute Expiration Date. If the IRS determines that



1
  26 U.S.C. § 6321.
2
  IRS Form 668(Y)(c), Notice of Federal Tax Lien, (Rev. Feb. 2004), Cat. No. 60025X. See Appendix V for a
glossary of terms.
3
  An extension is for a predetermined period of time. For example, the taxpayer consents to extend the collection
period for six months in conjunction with a payment agreement.
4
  A suspension is for an indefinite period of time during which the IRS is barred from taking actions to collect the
tax liability but resumes when the reason for the suspension is resolved. For example, the collection period may be
suspended during a bankruptcy case as a result of the automatic stay, but resumes running when the automatic stay
lifts.
5
  26 U.S.C. § 6323(g).
6
  The NFTL includes a provision that specifically states that the notice will serve as a certificate of release if it is not
refiled by the deadline.
                                                                                                                   Page 1
                               Procedures for Withdrawals and Releases of
                          Notices of Federal Tax Lien Were Not Always Followed



refiling is necessary, the Centralized Lien Processing Operation (CLP) will input and process the
NFTL refile through the Automated Lien System (ALS).
NFTL withdrawals
The Internal Revenue Code (I.R.C.)7 authorizes the IRS to withdraw an NFTL when certain
conditions have been met. For example, a withdrawal may be issued when it is in the best
interest of the Federal Government and the taxpayer or will facilitate collection of the tax
liability. Withdrawal of the NFTL removes the public notice of the lien; it does not extinguish
any remaining underlying liability, nor does it prevent the IRS from collecting any unsatisfied
tax liabilities. If the IRS issues a notice of withdrawal, from a credit-rating standpoint,8 it is as if
the NFTL was never filed.
In February 2011, the IRS modified its procedures to make it easier for taxpayers to obtain
NFTL withdrawals. This change was part of a broader initiative called Fresh Start, and the
primary goal was to help individuals and small businesses meet their tax obligations without
adding unnecessary burden to taxpayers.
Taxpayers and IRS employees request NFTL withdrawals through the Small Business/
Self-Employed (SB/SE) Division’s Advisory function or Insolvency function because these two
functions have the authority to approve withdrawals.9 If approved, the CLP processes and prints
the withdrawal certificates (Form 10916(c), Withdrawal of Filed Notice of Federal Tax Lien) and
sends it to the proper recording office.
NFTL releases
The IRS has legal10 and internal policy requirements to release the NFTL within 30 calendar days
of the date that the tax liability is fully satisfied,11 the liability becomes legally unenforceable,12
or the Secretary of the Treasury has accepted a bond for the assessed tax. The release of an
NFTL is generally systemically generated after all the tax periods on an NFTL are satisfied;
however, in some cases, the IRS should request a manual release. The taxpayer may also request
a manual release in situations that warrant expedited processing or request an immediate release
which can be prepared upon the receipt of certified funds. The CLP prints Form 668(Z),
Certificate of Release of Federal Tax Lien, and mails it to the proper recording office. In some


7
  26 U.S.C. § 6323(j).
8
  The IRS has no control over how a lien or withdrawal affects a credit rating.
9
  The Insolvency function has the delegated authority to approve NFTL withdrawals when the taxpayer is assigned
to the Insolvency function’s inventory. The Advisory function has the delegated authority to approve all other
NFTL withdrawal requests.
10
   26 U.S.C. § 6325(a).
11
   The term satisfied includes the payment of the outstanding obligation covered by the lien along with any interest,
additions to the tax, assessable penalties, and any additional costs which may have accrued.
12
   The account becomes legally unenforceable when, for example, it is beyond the Collection Statute Expiration
Date.
                                                                                                              Page 2
                            Procedures for Withdrawals and Releases of
                       Notices of Federal Tax Lien Were Not Always Followed



circumstances, such as an immediate release, revenue officers and Taxpayer Assistance Center
employees may issue the release certificate directly to the taxpayer upon receipt of certified
funds. The taxpayer can then personally file the certificate with the recording office.
The Government Accountability Office reported13 that, despite actions taken to improve its
NFTL release process, the IRS was not consistently releasing NFTLs timely, as required by the
I.R.C. The Government Accountability Office estimated that in Fiscal Year (FY) 2009,
14 percent of the NFTLs were not released timely due to processing errors and delays.
This review was performed at the IRS Cincinnati Campus in Cincinnati, Ohio, in the SB/SE
Division’s Campus Compliance Services during the period August 2011 through April 2012.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




13
  Government Accountability Office, GAO-10-176, GAO’s Financial Audit - IRS’s Fiscal Years 2009 and 2008
Financial Statements (Nov. 2009).
                                                                                                    Page 3
                             Procedures for Withdrawals and Releases of
                        Notices of Federal Tax Lien Were Not Always Followed




                                    Results of Review

Refiles of the Notice of Federal Tax Lien Were Processed Accurately
and Within the Required Time Period
Refiling the NFTL is necessary to protect the IRS’s priority position against other creditors when
the collection statute is extended or suspended. This priority was initially established when the
original NFTL was filed. Refiling the NFTL prevents the self-releasing provision of the NFTL
from extinguishing the lien. In order to be valid, the refiled NFTL needs to be processed within
the refiling period established by law, which is no later than 30 calendar days immediately after
the original Collection Statute Expiration Date. If the IRS determines refiling is necessary, it
must refile in every recording office in which a prior NFTL was filed or the refiling will be
invalid.
Refiles are normally requested through the CLP by the submission of Form 12636, Request for
Filing or Refiling Notice of Federal Tax Lien. The refile request must show the updated
Collection Statute Expiration Date for each period being refiled to ensure the information is
properly input by the CLP into the ALS. Once input, the CLP prints and mails the refiled
documents to the appropriate recording office.
We reviewed a random sample of 30 refiled NFTL cases issued between February 1 and
August 31, 2011, which showed that the refiling information was accurate and the IRS employee
properly submitted the NFTL refile request in all 30 cases. In addition, the CLP timely
processed the request to ensure the NFTL refile reached the recording office before the deadline.

Notice of Federal Tax Lien Withdrawals Have Significantly Increased
The IRS may withdraw an NFTL if it determines that any of the following conditions have been
met:
        An administrative error has occurred, such as an NFTL filed on a taxpayer during a
         bankruptcy case.14
        The taxpayer entered into an installment agreement and the agreement does not provide
         for the filing of an NFTL.
        Withdrawal will facilitate collection of the tax liability.

14
   Per Internal Revenue Manual 5.12.3, bankruptcy law requires the IRS to withdraw an NFTL if the NFTL was
filed when the automatic stay was in effect.
                                                                                                       Page 4
                                Procedures for Withdrawals and Releases of
                           Notices of Federal Tax Lien Were Not Always Followed



          Withdrawal is in the best interest of the Federal Government and the taxpayer.
In February 2011, the IRS announced the implementation of an initiative called Fresh Start, with
the purpose of making changes to its liens process in an effort to help struggling taxpayers get a
fresh start with their tax liabilities. The primary goal is to help individuals and small businesses
meet their tax obligations without adding unnecessary burden to taxpayers. One of the changes
was a modification of the procedures that now makes it easier for taxpayers to obtain NFTL
withdrawals. Specifically, the NFTL:
          Can now be withdrawn after full payment of taxes is made if the taxpayer requests it and
           certain criteria are met. For example, the taxpayer would qualify if all required tax
           returns have been filed for the past three years and current estimated taxes have been
           paid.
          Is withdrawn, in most cases, when a taxpayer has established or converts to a Direct
           Debit Installment Agreement and meets certain criteria.
The Fresh Start initiative has been extensively communicated to taxpayers and taxpayer
representatives through various public media. For example, a Fresh Start initiative page was
added to the IRS public website and it was discussed at the 2011 Nationwide Tax Forums. In
addition, several interim guidance memorandums and updates to the Internal Revenue Manual
(IRM)15 have effectively communicated the new procedures to IRS employees.
To assess the impact of the IRS’s Fresh Start initiative communication efforts, we analyzed the
IRS’s NFTL withdrawal statistics for the last five years for cases worked in the Advisory
function.16 Figure 1 shows that the number of withdrawal receipts, dispositions (withdrawal
requests worked and closed), and withdrawal certificates issued have increased significantly
since the Fresh Start initiative began.




15
     IRM 5.12.3.
16
     Advisory function employees process the majority of NFTL withdrawals under the Fresh Start initiative.
                                                                                                              Page 5
                            Procedures for Withdrawals and Releases of
                       Notices of Federal Tax Lien Were Not Always Followed



      Figure 1: NFTL Withdrawal Inventory Worked by the Advisory Function




Source: NFTL withdrawal statistical data obtained from the Advisory function.

When compared with FY 2010, the FY 2011 NFTL withdrawal inventory receipts increased by
84 percent, dispositions increased by 87 percent, and withdrawal certificates issued increased by
142 percent. In addition, based on the data for the first five months of FY 2012 and assuming
the numbers stay consistent for the rest of the year, we estimate the number of FY 2012
withdrawal inventory receipts, dispositions, and withdrawal certificates issued will increase by
approximately 23 percent, 32 percent, and 38 percent, respectively, compared with FY 2011.
Additionally, Figure 2 shows that 40 percent of the 6,075 withdrawal certificates issued in
FY 2011 were due to the Fresh Start initiative. During the first five months of FY 2012, the
number of withdrawal certificates issued due to the Fresh Start initiative for FY 2012 was
61 percent of total withdrawal certificates issued.




                                                                                           Page 6
                           Procedures for Withdrawals and Releases of
                      Notices of Federal Tax Lien Were Not Always Followed



         Figure 2: Fresh Start Initiative Withdrawal Certificates Compared
       With All Other Withdrawal Certificates Issued by the Advisory Function




  Source: NFTL withdrawal data obtained from the Advisory function and the ALS. The breakdown of “Fresh
  Start” and “Other Withdrawals” was a Treasury Inspector General for Tax Administration analysis based on
  information obtained from the associated ALS history. *FY 2012 shows data as of Feburary 26, 2012.

Notice of Federal Tax Lien Withdrawals Were Not Always Properly
Processed
While the Fresh Start initiative has benefited taxpayers and increased the number of withdrawals
issued, we determined taxpayer requests for withdrawals are not always processed properly
because:
      Evidence of withdrawal approval was not always available.
      Withdrawals were not always timely issued.

Evidence of withdrawal approval was not always available
The delegation to approve NFTL withdrawals is given only to Advisory function or Insolvency
function group managers. When an employee makes a determination to withdraw the NFTL, he
or she should forward the case file to the appropriate approving official. Generally,
Form 13794-W, Request for Withdrawal or Partial Withdrawal of Notice of Federal Tax Lien,
and either Letter 3044, Withdrawal Cover Letter, or Letter 4026, Withdrawal Cover Letter, are
also prepared and forwarded to the group manager for signature.
                                                                                                     Page 7
                              Procedures for Withdrawals and Releases of
                         Notices of Federal Tax Lien Were Not Always Followed



After a withdrawal of the NFTL request is properly approved, an Advisory function or
Insolvency function employee who has ALS experience or training may input the request into the
ALS. However, the group manager must approve the withdrawal request prior to ALS input. To
meet this approval requirement, it is sufficient for the group manager to make an entry in the
Automated Insolvency System or the Integrated Collection System case history. Advisory
function or Insolvency function employees who do not input the approved request directly to the
ALS should send Form 13794-W to the CLP for ALS input. Upon issuance of the NFTL
withdrawal certificate, the CLP should return a copy of the certificate to the requestor for
inclusion with Letter 3044 or Letter 4026 for issuance to the taxpayer. 17
We reviewed a statistical sample of 100 NFTL withdrawal cases issued between February 1 and
August 31, 2011, and determined that in 15 (15 percent) cases either the withdrawal request was
not properly approved or the approval was not documented in the case history by the Advisory
function or Insolvency function group managers.
We discussed the 15 cases with IRS management and determined that in:
      **************************1******************************************
         **************************1*******************.
      ***************************1*****************************************
         *************************************1********************.
IRS management informed us that, in some of these cases, the group managers must have failed
to document the case history after approving the withdrawal request. In addition, management
believes that because a cover letter is signed by the group manager, and the cover letter is
included with the certificate of withdrawal that is sent to the taxpayer, the approval requirement
has been met. However, in some of the reviewed cases, we determined the cover letter was not
signed until after the NFTL withdrawal certificate was issued to the recording office. Finally,
management believes some employees misunderstood the need for approval for Fresh Start
initiative cases.
Although we agreed with the Advisory function and Insolvency function decisions to issue the
withdrawals for the 15 cases, we could not determine if any of these requests received the
required managerial approval. We believe it is important that the group manager approve the
withdrawal request before it is input into the ALS, as required, and not after a copy of the
withdrawal is received from the CLP. There is a higher risk of errors when NFTL withdrawals
are processed without required approvals. For example, revenue officer collection actions or
taxpayer compliance issues may not yet be satisfactorily resolved prior to withdrawal. Based on
our sample results, we estimate there were 910 cases for which the case history did not contain

17
  The procedure for preparing and issuing the cover letters was revised in July 2011. Currently, a digitally signed
cover letter and a copy of the withdrawal certificate are sent to the taxpayer through the IRS’s Correspondence
Production Services function.
                                                                                                             Page 8
                              Procedures for Withdrawals and Releases of
                         Notices of Federal Tax Lien Were Not Always Followed



evidence to show the withdrawal request was properly approved by the Advisory function or
Insolvency function group managers. We are 95 percent confident that the range of withdrawals
without evidence of required approval is between 487 and 1,333 cases.

Withdrawals were not always timely
According to the IRS’s policy, the time period from approval of a withdrawal request until the
certificate is filed in the appropriate recording office should be no more than 10 business days.18
After approval, the Advisory function or Insolvency function may input the withdrawal request
into the ALS or forward the request to the CLP for input. Withdrawal requests forwarded to the
CLP should be input within five business days of receipt. After withdrawals are input into the
ALS, the CLP is responsible for generating and printing the withdrawal certificate and sending it
to the recording office.
Our review of a statistical sample of 100 NFTL withdrawal cases issued between February 1 and
August 31, 2011, determined that 30 withdrawal cases from our sample were forwarded to the
CLP for ALS input. The remaining 70 sample cases were input by either the Advisory function
or Insolvency function. Our review showed that, in all 30 (100 percent) cases, the withdrawal
request was input within the required five business days from the received date.
However, our review of all 100 cases showed that, in eight (8 percent) of the 100 cases, the
certificate of withdrawal was not issued to the recording office within 10 business days after
being approved by the Advisory function or Insolvency function.
A combination of factors prevented the timely issuance to the recording office for these cases.
Specifically, in:
        4 cases worked by the Advisory function, an ALS system update and another system
         issue caused the withdrawal documents to be delayed for two to four weeks.
      ************************************1******************************
         ***********************************1*******************.
      **********************************1**********************************
        *****1******.
The IRM does not specifically require the approving manager to document the action taken in
the Integrated Collection System or the Automated Insolvency System history immediately upon
approval of the NFTL withdrawal request. Additionally, IRS procedures do not specifically
require Advisory function and Insolvency function employees to timely input the NFTL
withdrawal request into the ALS after managerial approval.


18
  For withdrawals due to administrative errors, the 10-day time period begins when the taxpayer requests the
withdrawal.
                                                                                                           Page 9
                               Procedures for Withdrawals and Releases of
                          Notices of Federal Tax Lien Were Not Always Followed



Delays in issuing NFTL withdrawals can cause unnecessary burden to taxpayers who may be
trying to meet financial obligations, including paying their taxes. Based on our sample results
from an estimated population of 6,064 NFTL withdrawals, we estimate there were 485 cases for
which certificates of withdrawal were not timely issued to the recording office. We are
95 percent confident that the range of untimely withdrawals is between 164 and 806 cases.

Recommendation
Recommendation 1: The Director, Enterprise Collection Strategy, SB/SE Division, should
revise the IRM to require the approving manager to document the action taken in the Integrated
Collection System or the Automated Insolvency System history immediately upon approval of
the NFTL withdrawal request. The Director should also require timely input of the NFTL
withdrawal request into the ALS after managerial approval.
         Management’s Response: IRS management agreed with this recommendation and
         plans to make changes to the relevant IRM sections to provide for improved
         documentation and timely disposition of withdrawals.

Notice of Federal Tax Lien Releases Were Not Always Timely Issued
The majority of NFTL releases are generated systemically with minimal human involvement.
However, others need to be prepared manually. For example, manual releases are required when
the taxpayer fully pays his or her tax liability for the express purpose of getting the NFTL
released or if the liability is discharged through bankruptcy and time is limited to comply with
the 30-day statutory requirement. Our review showed that releases were not always issued
timely.
We reviewed manual and systemic releases separately because the procedures and circumstances
for the two release methods are different. Although the majority of cases with problems were
related to manual releases, we also identified some systemic releases that were not timely issued.
The IRS is required19 to issue a certificate of NFTL release within 30 calendar days of
determination that the liability for which the lien was filed is satisfied or becomes legally
unenforceable.20 We reviewed a statistical sample of 100 manual and 185 systemic NFTL
releases generated between February 1 and August 31, 2011. We determined that
11 (11 percent) of the 100 manual NFTL releases and nine (4.86 percent) of the 185 systemic

19
  26 U.S.C. § 6325(a).
20
  The Insolvency function is not required by I.R.C. § 6325(a) to release the NFTL within 30 calendar days in cases
when the underlying tax liability has been discharged through bankruptcy or when there are no assets from which
collection can be made. However, it is an IRS internal policy for the Insolvency function to release the NFTL
within 30 calendar days of determination that the liability for which the lien was filed is satisfied or becomes legally
unenforceable.
                                                                                                              Page 10
                          Procedures for Withdrawals and Releases of
                     Notices of Federal Tax Lien Were Not Always Followed



NFTL releases reviewed were not released within the required 30 calendar days. We discussed
the results for the 20 cases (11 manual releases and nine systemic releases) with IRS
management and determined that for:
      13 cases, Insolvency function employees did not timely follow internal procedures for
       initiating an NFTL release. Specifically, seven manual releases were not timely
       processed, and six systemic releases should have been manually processed to ensure
       compliance with the 30-day release requirement. Insolvency function procedures require
       the issuance of a manual release when closing actions will delay the issuance of a
       systemic release. However, the procedures do not provide detailed guidance. As a result,
       employees must make a subjective decision as to when a manual release is appropriate.
       Additionally, the procedures do not clarify that the 30-day release requirement includes
       the time it takes the CLP to process and mail the NFTL release.
      5 cases (four manual and one systemic), the NFTLs were not timely released for a variety
       of reasons. However, employee processing errors contributed to the late releases in some
       of the cases.
    **********************************1**********************************
       **1**. Specifically, the ALS is programmed to delay the issuance of an NFTL release
       for 45 calendar days after the Collection Statute Expiration Date on a refiled NFTL
       expires and for 30 calendar days after the Collection Statute Expiration Date expiration
       for non-refiled NFTLs. These ALS programming delays exceed the 30-day statutory
       requirement. After we raised this issue to the IRS, management took corrective action for
       the 45-day programming delay. However, the IRS has not yet taken action to correct the
       30-day programming delay and stated that further consideration was needed prior to
       implementing this corrective action.
When the IRS does not timely release NFTLs, taxpayers’ rights are not effectively protected and
taxpayers may experience unnecessary hardships. For example, taxpayers may be hindered in
selling property, obtaining employment, or obtaining approval for loans.
Based on an estimated population of 22,650 manual NFTL releases and 227,249 systemic NFTL
releases, we estimate that 2,492 manual and 11,055 systemic releases issued between February 1
and August 31, 2011, were not timely released as required by I.R.C. Section 6325(a) or IRS
internal policy. We are 95 percent confident that the number of NFTLs not released within the
required 30 calendar days is between 1,099 and 3,884 for manual releases and between 3,994 and
18,116 for systemic releases.




                                                                                        Page 11
                          Procedures for Withdrawals and Releases of
                     Notices of Federal Tax Lien Were Not Always Followed



Recommendations
The Director, Enterprise Collection Strategy, SB/SE Division, should:
Recommendation 2: Establish more specific IRM procedures to better define when a manual
NFTL release should be issued. The procedures should also emphasize the need to timely input
manual release requests into the ALS and clarify that the 30-day timeliness requirement also
includes processing time by the CLP.
       Management’s Response: IRS management agreed with this recommendation and
       plans to make changes to the relevant IRM sections to elaborate on the manual release
       process.
Recommendation 3: Evaluate whether to change the 30-day programming delay in the ALS
when the Collection Statute Expiration Date expires on a non-refiled NFTL to prevent untimely
NFTL releases.
       Management’s Response: IRS management agreed with this recommendation. The
       possibility of the programming change within the current structure of the ALS will be
       considered as well as the volume of cases affected by such a change and the potential
       effects on other lien processes such as refiles.




                                                                                      Page 12
                            Procedures for Withdrawals and Releases of
                       Notices of Federal Tax Lien Were Not Always Followed



                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the controls and procedures for the
release, withdrawal, and refiling of NFTLs1 are effectively protecting the Federal Government’s
interest and taxpayers’ rights. To accomplish this objective, we:
I.      Identified the IRS’s procedures and guidelines for the release, withdrawal, and refiling of
        an NFTL.
        A. Reviewed applicable IRS procedures and interim guidance.
        B. Interviewed SB/SE Division personnel from the Advisory function, the CLP, and the
           Collection Policy function to identify their role and involvement in processing
           requests for release, withdrawal, and refiling of an NFTL.
        C. Conducted a field visit to the CLP in the Cincinnati Campus to identify how releases,
           withdrawals, and refilings are processed by the Lien unit.
II.     Determined whether the SB/SE Division followed statutory requirements for NFTL
        releases according to I.R.C. Section 63252 and the IRS’s established procedures.
        A. Performed an analysis to determine whether systemic NFTL releases were properly
           and timely released.
            1. Identified the population of 227,249 systemic NFTL releases for the period
               February 1 through August 31, 2011, from the ALS.
            2. Selected a statistically valid sample of 185 cases from the population identified in
               Step II.A.1. for review. We used a statistical sample because we wanted to
               project the number of cases with errors. The sample selection was based on an
               expected error rate of 14 percent as determined from the FY 2009 Government
               Accountability Office Financial Audit Report,3 a ±5 percent precision, and a
               95 percent confidence interval.
            3. Conducted a review using the Integrated Data Retrieval System, the ALS, the
               Automated Insolvency System, and the Integrated Collection System to determine
               whether the Form 668(Z), Certificate of Release of Federal Tax Lien, was issued

1
  See Appendix V for a glossary of terms.
2
  26 U.S.C. § 6325(a).
3
  Government Accountability Office, GAO-10-176, GAO’s Financial Audit – IRS’s Fiscal Years 2009 and 2008
Financial Statements (Nov. 2009).
                                                                                                   Page 13
                         Procedures for Withdrawals and Releases of
                    Notices of Federal Tax Lien Were Not Always Followed



              within 30 calendar days after determining that the taxpayer’s outstanding liability,
              covered by the NFTL, was fully satisfied.
       B. Conducted a case review to determine whether manual NFTL releases were properly
          and timely released.
          1. Identified the population of 22,650 manual NFTL releases for the period
             February 1 through August 31, 2011, from the ALS.
          2. Selected a statistically valid sample of 184 cases from the population identified in
             Step II.B.1. for review. We used a statistical sample because we wanted to
             project the number of cases with errors. The sample selection was also based on
             an expected error rate of 14 percent, as determined from the FY 2009 Government
             Accountability Office Financial Audit Report, a ±5 percent precision, and a
             95 percent confidence interval. We limited our sample size due to resource
             constraints and reviewed only the first 100 cases according to the random number
             generator.
          3. Conducted a case review using the case histories obtained from the Integrated
             Collection System, the Automated Insolvency System, and the Automated Offer
             in Compromise database, when applicable, and data from the Integrated Data
             Retrieval System to verify if the Certificate of Release was issued within
             30 calendar days after determining that the taxpayer’s outstanding liability
             covered by the NFTL was fully satisfied or legally unenforceable.
III.   Determined whether the SB/SE Division took appropriate and timely actions to work
       NFTL withdrawal requests.
       A. Identified the population of 6,064 NFTL withdrawals for the period February 1
          through August 31, 2011, from the ALS.
       B. Selected a statistically valid sample of 362 cases from the population identified in
          Step III.A. for review. The sample selection was based on an estimated error rate of
          50 percent, a ±5 percent precision, and a 95 percent confidence interval. We limited
          our sample size due to resource constrains and reviewed only the first 100 cases
          according to the random number generator.
       C. Conducted a case review using the case histories obtained from the Integrated
          Collection System, the Automated Insolvency System, and the Automated Offer in
          Compromise database, when applicable, and data from the Integrated Data Retrieval
          System to verify if:
          1. The Advisory function or Insolvency function properly approved requests for
             NFTL withdrawals.


                                                                                          Page 14
                          Procedures for Withdrawals and Releases of
                     Notices of Federal Tax Lien Were Not Always Followed



          2. The Certificate of Withdrawal (Form 10916(c), Withdrawal of Filed Notice of
             Federal Tax Lien) was issued timely to either the recording office or the taxpayer
             after being approved by the Advisory function or Insolvency function.
          3. The Certificate of Withdrawal was issued timely after the request was sent to the
             CLP when applicable.
IV.    Determined whether NFTL refilings were timely requested and processed accurately by
       the SB/SE Division.
       A. Identified 2,373 refiled NFTL cases for the period February 1 through August 31,
          2011, from the ALS.
       B. Selected a random sample of 30 refiled NFTL cases from the population identified in
          Step IV.A. for review. We selected a random sample to ensure every refiled NFTL
          case had an equal chance of being selected from the identified population.
       C. Conducted a case review using the case histories obtained from the Integrated
          Collection System, the Automated Insolvency System, and the Automated Offer in
          Compromise database, when applicable, and data from the Integrated Data Retrieval
          System to verify if:
          1. The employee complied with the required refiling period (one-year period ending
             30 calendar days after the scheduled Collection Statute Expiration Date).
          2. The SB/SE Division timely processed the request so the refile of the NFTL
             reached the recording office before the deadline.
V.     Validated the data received from the ALS for NFTL systemic releases, manual releases,
       withdrawals, and refilings by verifying all the records were issued between February 1
       and August 31, 2011. We then validated a random sample of 30 cases for each
       population by comparing the sample information to that found on the Integrated Data
       Retrieval System and determined the data were sufficiently reliable for this audit.
VI.    Considered the possibility of fraud and evaluated the risk of fraud as we conducted this
       review.
VII.   Analyzed the IRS’s NFTL withdrawal statistics for the last five years for cases worked in
       the SB/SE Division’s Advisory function.




                                                                                         Page 15
                         Procedures for Withdrawals and Releases of
                    Notices of Federal Tax Lien Were Not Always Followed



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: SB/SE Division collection policies,
procedures, and practices for refiling, withdrawing, and releasing NFTLs and ALS programming
controls. We evaluated these controls by observing CLP employees input data into the ALS,
interviewing management, and reviewing samples of NFTL refiles, withdrawals, and releases.




                                                                                     Page 16
                         Procedures for Withdrawals and Releases of
                    Notices of Federal Tax Lien Were Not Always Followed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Phyllis Heald London, Audit Manager
Doris Cervantes, Lead Auditor
Mike Garcia, Senior Auditor
Joel Weaver, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                      Page 17
                         Procedures for Withdrawals and Releases of
                    Notices of Federal Tax Lien Were Not Always Followed



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:ESC
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Advisory and Insolvency, Small Business/Self-Employed Division SE:S:FC:AI
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS:FPC
Director, Collection Policy, Small Business/Self-Employed Division SE:S:ESC:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 18
                                Procedures for Withdrawals and Releases of
                           Notices of Federal Tax Lien Were Not Always Followed



                                                                                     Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
     Taxpayer Burden – Potential; 485 taxpayers whose NFTL1 withdrawals were not issued to
      the recording office within 10 business days after being approved by the Advisory function
      or Insolvency function (see page 7).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample, we reviewed 100 NFTL withdrawals processed in the ALS
between February 1 and August 31, 2011, we found eight (8 percent) withdrawals that were not
issued to the recording office within 10 business days after being approved by the Advisory
function or Insolvency function. The sample was selected based on a 95 percent confidence
level, a ±5 percent precision, and an estimated error rate of 50 percent. We limited our sample
size due to resource constrains and reviewed only the first 100 cases according to the random
number generator.
We projected the findings to the total population of 6,064 NFTL withdrawals issued between
February 1 and August 31, 2011. We estimate that 485 taxpayers were not timely issued NFTL
withdrawals after approval and are 95 percent confident that the number of taxpayers whose
NFTL withdrawals were not timely is between 164 and 806.

Type and Value of Outcome Measure:
     Taxpayer Rights and Entitlements – Potential; 13,547 taxpayers whose NFTL releases
      (2,492 manual and 11,055 systemic) were not issued within 30 calendar days of the
      determination by the IRS that the tax liability for which the lien was filed was satisfied or
      legally unenforceable, resulting in potential violations of taxpayers’ rights (see page 10).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample, we reviewed 100 manually released and 185 systemically
released NFTLs processed in the ALS between February 1 and August 31, 2011, we identified

1
    See Appendix V for a glossary of terms.
                                                                                               Page 19
                                Procedures for Withdrawals and Releases of
                           Notices of Federal Tax Lien Were Not Always Followed



11 (11 percent) manual releases and nine (4.86 percent) systemic releases that were not released
within 30 calendar days of the determination by the IRS that the tax liability was fully satisfied
or legally unenforceable. The sample for the manual and systemic NFTL releases was selected
based on a 95 percent confidence level, a ±5 percent precision, and an expected error rate of
14 percent. For manual releases, we limited our sample size due to resource constrains and
reviewed only the first 100 cases according to the random number generator.
We projected the findings to the total populations of 22,650 for manual NFTL releases and
227,249 for systemic NFTL releases issued between February 1 and August 31, 2011. We
estimate that 2,492 taxpayers receiving manual releases and 11,055 taxpayers receiving systemic
releases were not issued a timely NFTL release as required by I.R.C. Section 6325(a)2 or IRS
internal policy. Additionally, we are 95 percent confident that the number of taxpayers with
NFTLs not released within the required 30 calendar days is between 1,099 and 3,884 for manual
releases and between 3,994 and 18,116 for systemic releases.




2
    26 U.S.C. § 6325(a).
                                                                                           Page 20
                           Procedures for Withdrawals and Releases of
                      Notices of Federal Tax Lien Were Not Always Followed



                                                                                    Appendix V

                                 Glossary of Terms

Advisory Function – The IRS Collection function that gives technical guidance to revenue
officers about liens, levies, litigation, and more. The Advisory function also serves many
external customers by advising taxpayers and their representatives about topics such as the sale
of property, lien certificates, and estate taxes.
Automated Insolvency System – The database used to manage all of the bankruptcy cases in
the Insolvency function’s inventory.
Automated Lien System – The system that stores Federal tax lien and collection due process
document data; utilizes information and provides the tools for users to create, release, refile, and
withdraw liens; revokes releases; processes Collection Due Process letters; and prints lien and
Collection Due Process letter facsimiles.
Automated Offer in Compromise – The database that allows monitoring, tracking, and
controlling of offers in compromise submitted to the IRS.
Automatic Stay – An injunction that automatically stops lawsuits, foreclosures, garnishments,
and all collection activity against the debtor the moment a bankruptcy petition is filed.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the computing centers for analysis and posting to
taxpayer accounts.
Campus Compliance Services – The IRS organization that manages and implements strategies
pertaining to Collection and Examination function programs in the Brookhaven, New York;
Cincinnati, Ohio; Philadelphia, Pennsylvania; Memphis, Tennessee; and Ogden, Utah,
Campuses.
Centralized Lien Processing Operation – The IRS operation that processes requests for actions
on the ALS, including the filing of liens and related lien documents and other actions relating to
lien processing.
Collection Statute Expiration Date – The time period established by law to collect taxes. It is
normally 10 years from the date of the tax assessment.
Correspondence Production Services – The Correspondence Production Services sites provide
printing, inserting, sorting, and mailing of IRS notices.
Direct Debit Installment Agreement – The means by which funds are automatically debited
from a taxpayer’s bank account for the agreed upon installment amount.

                                                                                             Page 21
                          Procedures for Withdrawals and Releases of
                     Notices of Federal Tax Lien Were Not Always Followed



Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Insolvency Functions – The IRS functions that are responsible for administering coordination of
taxpayer bankruptcy cases, consisting of Field Insolvency, a Collection function, and the
Centralized Insolvency Operation, part of the Campus Compliance Services function.
Bankruptcy law is the prevailing authority when a taxpayer files bankruptcy. Bankruptcy laws
are separate from tax laws, and coordination is necessary to comply with both.
Installment Agreement – Arrangements by which the IRS allows taxpayers to pay liabilities
over time.
Integrated Collection System – An information management system designed to improve
revenue collections by providing revenue officers in the field access to the most current taxpayer
information using laptop computers for quicker case resolution and improved customer service.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
Notice of Federal Tax Lien – Document filed in local government offices to protect the Federal
Government’s right of priority against other creditors of the taxpayer.
Small Business/Self-Employed Division – The IRS organization that services self-employed
taxpayers and small businesses by educating and informing them of their tax obligations,
developing educational products and services, and helping them understand and comply with
applicable tax laws.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.




                                                                                              Page 22
           Procedures for Withdrawals and Releases of
      Notices of Federal Tax Lien Were Not Always Followed



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 23
     Procedures for Withdrawals and Releases of
Notices of Federal Tax Lien Were Not Always Followed




                                                   Page 24
     Procedures for Withdrawals and Releases of
Notices of Federal Tax Lien Were Not Always Followed




                                                   Page 25
